<html>
<title> - TO AMEND PUBLIC LAW 89-732 TO MODIFY THE REQUIREMENT FOR A CUBAN NATIONAL TO QUALIFY FOR AND MAINTAIN STATUS AS A PERMANENT RESIDENT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
   TO AMEND PUBLIC LAW 89-732 TO MODIFY THE REQUIREMENT FOR A CUBAN 
  NATIONAL TO QUALIFY FOR AND MAINTAIN STATUS AS A PERMANENT RESIDENT

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   IMMIGRATION POLICY AND ENFORCEMENT

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   ON

                               H.R. 2831

                               __________

                              MAY 31, 2012

                               __________

                           Serial No. 112-108

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov





                  U.S. GOVERNMENT PRINTING OFFICE
74-417                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                       COMMITTEE ON THE JUDICIARY

                      LAMAR SMITH, Texas, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        HOWARD L. BERMAN, California
HOWARD COBLE, North Carolina         JERROLD NADLER, New York
ELTON GALLEGLY, California           ROBERT C. ``BOBBY'' SCOTT, 
BOB GOODLATTE, Virginia                  Virginia
DANIEL E. LUNGREN, California        MELVIN L. WATT, North Carolina
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
MIKE PENCE, Indiana                  MAXINE WATERS, California
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     MIKE QUIGLEY, Illinois
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 TED DEUTCH, Florida
TIM GRIFFIN, Arkansas                LINDA T. SANCHEZ, California
TOM MARINO, Pennsylvania             JARED POLIS, Colorado
TREY GOWDY, South Carolina
DENNIS ROSS, Florida
SANDY ADAMS, Florida
BEN QUAYLE, Arizona
MARK AMODEI, Nevada

           Richard Hertling, Staff Director and Chief Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

           Subcommittee on Immigration Policy and Enforcement

                  ELTON GALLEGLY, California, Chairman

                    STEVE KING, Iowa, Vice-Chairman

DANIEL E. LUNGREN, California        ZOE LOFGREN, California
LOUIE GOHMERT, Texas                 SHEILA JACKSON LEE, Texas
TED POE, Texas                       MAXINE WATERS, California
TREY GOWDY, South Carolina           PEDRO R. PIERLUISI, Puerto Rico
DENNIS ROSS, Florida

                     George Fishman, Chief Counsel

                   David Shahoulian, Minority Counsel



                            C O N T E N T S

                              ----------                              

                              MAY 31, 2012

                                                                   Page

                                THE BILL

H.R. 2831, To Amend Public Law 89-732 to modify the requirement 
  for a Cuban national to qualify for and maintain status as a 
  permanent resident.............................................     3

                           OPENING STATEMENTS

The Honorable Elton Gallegly, a Representative in Congress from 
  the State of California, and Chairman, Subcommittee on 
  Immigration Policy and Enforcement.............................     1
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Ranking Member, Subcommittee on 
  Immigration Policy and Enforcement.............................     5

                               WITNESSES

The Honorable David Rivera, a Representative in Congress from the 
  State of Florida
  Oral Testimony.................................................     7
  Prepared Statement.............................................     9
Juan Carlos Gomez, Director, Carlos A. Costa Immigration and 
  Human Rights Clinic, Florida International University College 
  of Law
  Oral Testimony.................................................    12
  Prepared Statement.............................................    14
Mauricio Claver-Carone, Executive Director, Cuba Democracy 
  Advocates
  Oral Testimony.................................................    18
  Prepared Statement.............................................    20
Tomas Bilbao, Executive Director, Cuba Study Group
  Oral Testimony.................................................    25
  Prepared Statement.............................................    27

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Ranking Member, 
  Subcommittee on Immigration Policy and Enforcement.............    33
Material submitted by the Honorable Elton Gallegly, a 
  Representative in Congress from the State of California, and 
  Chairman, Subcommittee on Immigration Policy and Enforcement...    42
Material submitted by Mauricio Claver-Carone, Executive Director, 
  Cuba Democracy Advocates.......................................    47
Prepared Statement of the Honorable Albio Sires, a Representative 
  in Congress from the State of New Jersey, submitted by the 
  Honorable David Rivera, a Representative in Congress from the 
  State of Florida...............................................    61
Material submitted by Tomas Bilbao, Executive Director, Cuba 
  Study Group....................................................    62


   TO AMEND PUBLIC LAW 89-732 TO MODIFY THE REQUIREMENT FOR A CUBAN 
  NATIONAL TO QUALIFY FOR AND MAINTAIN STATUS AS A PERMANENT RESIDENT

                              ----------                              


                         THURSDAY, MAY 31, 2012

              House of Representatives,    
                    Subcommittee on Immigration    
                            Policy and Enforcement,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 1:30 p.m., in 
room 2141, Rayburn House Office Building, the Honorable Elton 
Gallegly (Chairman of the Subcommittee) presiding.
    Present: Representatives Gallegly, Ross, Lofgren, and 
Jackson Lee.
    Staff Present: (Majority) Dimple Shah, Counsel; Marian 
White, Clerk; and (Minority) David Shahoulian, Subcommittee 
Chief Counsel.
    Mr. Gallegly. I call the Subcommittee to order.
    We are going to have votes here shortly so we will try to 
get our opening statements, mine and the Ranking Member's, 
before we go to vote, and hopefully we will not be interrupted 
too long.
    Over the last 2 years, due to changes in U.S. policy, there 
has been a marked increase in travel to Cuba. In fact, travel 
from the U.S. to that country has tripled, with most of the 
increase coming as a result of travelers taking multiple trips 
per year. As a result, visiting Cuban Americans have become one 
of the Castro regime's top sources of revenue.
    The Cuban Adjustment Act was enacted in 1966 to provide 
Cubans fleeing persecution with the ability to adjust to 
permanent residency status in the U.S. after 1 year. However, 
some Cubans who sought refuge in the U.S. under the CAA 
immediately and repeatedly travel back to Cuba once they 
receive permanent residence. Essentially, they are returning to 
the very same country that supposedly persecuted them.
    The original intent of the CAA must be maintained. The law 
was enacted to provide permanent residency to Cuban refugees 
who were not able to return to Cuba due to the fear of 
persecution and the political situation in that country. Today, 
the political situation in Cuba remains the same, with a 
Communist dictatorship that denies basic human rights to its 
people. The fact that some persons avail themselves of the CAA 
citing political persecution, and then quickly travel back to 
the persecuting country, is an abuse of the generosity of the 
American people and is unacceptable.
    H.R. 2831 will rectify these abuses. The bill amends the 
CAA so that Cuban nationals who obtain permanent residence 
pursuant to the CAA will have their permanent resident status 
revoked if they travel to Cuba. The bill will help ensure that 
the CAA continues to protect Cuban refugees who are truly 
fleeing persecution, without becoming a vehicle to support the 
economy of the Castro regime.
    And with that, I would yield to the gentlelady from 
California, the Ranking Member, Ms. Lofgren.
    [The bill, H.R. 2831, follows:
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Ms. Lofgren. Thank you, Mr. Chairman.
    The bill before us today is very simple. If enacted it 
would revoke the permanent residence status of any Cuban 
national who travels to Cuba prior to becoming a citizen, 
whatever the reason for the travel. Put another way, it turns 
the act of travel to Cuba into a deportable offense.
    No matter what the reason for stepping foot in Cuba, you 
lose your status. If you go to visit family members you haven't 
seen in years, you lose your status. If you go to attend the 
funeral of your father or to donate a kidney to a dying 
sibling, you lose your status. If you go to meet with Cuban 
dissidents with the aim of transitioning Cuba to a democracy, 
you lose your status. Whatever the reason, the bill says to 
those who travel, don't bother getting on a plane back to the 
United States, your permanent residency has been rescinded, you 
are no longer welcome here.
    When I first learned of this bill, I had my Subcommittee 
staff reach out to Mr. Rivera's office to better understand why 
he believed such legislation was necessary. After all, this 
bill would appear to punish many of his own constituents simply 
for choosing to visit family members still in Cuba. My staff 
was told that the bill was necessary to prevent alleged abuses 
of the Cuban Adjustment Act. According to Mr. Rivera's staff, 
the Act was meant for refugees so beneficiaries should not be 
traveling back to Cuba. His staff also expressed concern that 
recent arrivals were exploiting the Act to collect public 
benefits and then take those benefits back to Cuba where they 
could live a more lavish lifestyle.
    On the first point, I had my staff explain that permanent 
residency through the Cuban Adjustment Act is not limited to 
refugees and that the vast majority of Cubans who use the Act 
are family-based immigrants who make no claim of persecution. 
In fact, in fiscal year 2011, almost 18,000 Cubans were granted 
parole to the U.S. as family based immigrants compared to 3,000 
who were admitted as refugees. Never has this country denied 
the ability for family-based immigrants to visit their homeland 
and doing so here would set a dangerous precedent.
    With respect to the claim that immigrants are using public 
benefits to live extravagantly in Cuba, I took that charge 
seriously and had my staff look into it. We searched for 
reports or studies on the issue, but there were none. We called 
the Social Security Administration, the Florida Department of 
Children and Families, Florida Legal Services, the Center for 
Budget and Policy Priorities, and other experts on the use of 
public benefits, but each person we spoke to said this was not 
a serious possibility and each explained how incredibly 
difficult it would be to pull something like this off even for 
a short period of time.
    Nevertheless, we took Mr. Rivera's staff at its word and we 
offered to assist them in drafting a bill that would revoke 
public benefits for any person who spent an inordinate amount 
of time in Cuba absent truly extraordinary circumstances, but 
this offer was declined.
    I think that a bill that would target abuse of benefits 
that may not exist would be one thing, but this bill does 
something substantially different. We are left with a bill that 
doesn't differentiate between humanitarian travel and travel 
for other purposes. It doesn't matter whether a person came to 
the U.S. as a refugee or to reunite with family members. It 
doesn't matter whether they traveled to Cuba for 1 day or 6 
months, and it doesn't matter whether they receive public 
benefits or not. It doesn't matter whether they came last year 
or 50 years ago.
    This bill seems to have one purpose and one purpose only: 
to punish people who exercise their right to travel to Cuba. We 
all know that some want to restrict travel to Cuba, but 
deporting people for not agreeing with this position, I think, 
is simply wrong.
    Let's talk about a real life example of a person who could 
be deported if this bill were to become law. You wouldn't know 
it by his name, but my chief counsel on this Subcommittee, 
David Shahoulian, is of Cuban descent. His family came to the 
U.S. in 1967 on one of the famous ``Freedom Flights'' from Cuba 
for America. His grandmother, Fedelini Perez, came on that 
flight and received her green card through the Cuban Adjustment 
Act the following year.
    Forty-five years later, his grandma remains a permanent 
resident of the United States. Lack of an education in Cuba 
made it difficult for her to pass the English and civics test 
required for citizenship, but she worked hard and did not rely 
on public assistance. During these 45 years, Mr. Shahoulian's 
grandma traveled to Cuba exactly four times, each time for 
about a week to visit a sick or dying family member. Had this 
bill been law back then, she would not have been able to come 
back.
    David tells me that now at age 90, she is hoping to go back 
one more time to visit her siblings who she will never be able 
to see again. But if this were to become law she could go to 
see her siblings but not come back. Here is a bill that would 
deport David's grandmother and others like her simply for 
visiting family members, and it is hard for me to consider this 
a serious policy proposal. It is hard for me to imagine our 
Committee giving this bill a hearing considering all of the 
problems our country is facing.
    And I yield back, Mr. Chairman.
    Mr. Gallegly. I thank the gentlelady.
    As you know, the bells have gone off. We have three votes. 
One 15, which translated in Congressional time it is about 29 
to 37 minutes, and two 5-minute votes, which translated is 7 or 
8 minutes. Put that together, it is probably going to be 
between 45 and 50 minutes. But we will be back as quickly as we 
can.
    Thank you.
    [Recess.]
    Mr. Gallegly. We have a very distinguished panel with us 
today. Each of the witnesses' written statements will be 
entered into the record in its entirety. However, I would ask 
that your verbal testimony be held to 5 minutes and we provided 
the lights and you all know how those work. So if you would 
help us with that, I would be grateful.
    Today, we will start with our colleague, Congressman David 
Rivera, who represents the 25th Congressional District in 
Florida and is currently serving his first term in the House of 
Representatives. He serves on the House Committee on Foreign 
Affairs and on the House Committee on Natural Resources. Prior, 
he served in the Florida House of Representatives and worked in 
the U.S. Information Agency in the Office of Cuba Broadcasting.
    Congressman Rivera received his Bachelor's Degree from 
Florida International University and a Master's of Public 
Administration.
    Welcome, David. Glad to have you.

 TESTIMONY OF THE HONORABLE DAVID RIVERA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Rivera. Thank you, Mr. Chairman, for holding this 
hearing regarding a very important immigration enforcement 
matter.
    In 1966, the United States of America granted Cuban 
nationals one of the most benevolent immigration provisions 
ever granted to nationals of any country on the planet, what 
became known as the Cuban Adjustment Act. The Cuban Adjustment 
Act provides Cubans fleeing persecution in Cuba who arrive in 
the United States eligibility for permanent residency status 
after 1 year. In the history of America only one other 
nationality has been granted this benefit, Hungarians in 1956. 
The Cuban Adjustment Act is a precious gift to Cuban political 
refugees that must be preserved and protected and should never 
be abused or manipulated.
    Unfortunately, abuse and manipulation is exactly what has 
occurred in recent years. Because of these abuses and in order 
to preserve and protect the benefits of the Cuban Adjustment 
Act for future Cuban asylum seekers, the time has come to 
adjust the Cuban Adjustment Act.
    The fact is that in recent years it has become a common 
occurrence for Cubans to seek political asylum in the U.S. 
under the Cuban Adjustment Act and after a year and a day 
immediately and repeatedly travel back to the persecuting 
country.
    Increasingly, Cuban Americans are citing family 
reunification to justify travel that in reality that more 
closely resembles common tourism and other unauthorized travel. 
One of the latest manifestations of abuse of this law occurred 
when travel agencies providing Cuba travel services actually 
incentivized passengers to inducements such as free airfare as 
long as the passenger is willing to carry baggage filled with 
merchandise to be used for sale in Cuba. In these cases, Cuban 
Adjustment Act beneficiaries actually become human cargo 
vessels to promote commercial activity for Cuba.
    In many cases, those Cubans traveling are also recipients 
of U.S. taxpayer funded welfare programs such as Medicare, 
Medicaid, Social Security, food stamps, public housing and cash 
assistance. In these cases, U.S. taxpayers are actually 
subsidizing travel to a country that has been designated a 
sponsor of terrorism by our own government.
    The original intent of the Cuban Adjustment Act was to 
provide residency status to Cuban refugees because they were 
not able to return to Cuba due to the political situation in 
Cuba in 1966, which certainly has not changed. In fact the 
political situation in Cuba is worse today with a Communist, 
totalitarian dictatorship in power that continues to deny basic 
civil liberties and human rights to its people, continues to 
imprison peaceful pro-democracy activists and continues to 
cause the deaths of Cubans who desperately seek to escape 
across the Florida straits.
    The fact that Cubans avail themselves of the Cuban 
Adjustment Act citing politically persecution and then quickly 
travel back to the persecuting country is a clear and blatant 
abuse of the law. In fact it is outright fraud being 
perpetrated on the people and government of the United States.
    If Cubans are able to travel back to the Communist 
dictatorship, then they should not have received the residency 
benefits associated with the Cuban Adjustment Act and they 
should lose that benefit immediately.
    My legislation simply says that any Cuban national who 
receives political asylum and residency under the Cuban 
Adjustment Act and travels to Cuba while still a resident will 
have their residency status revoked. By reforming the Cuban 
Adjustment Act to stop its abuses, we are ensuring the 
residency benefits will be there for all future asylum seekers. 
In other words, adjust the Cuban Adjustment Act in order to 
save the Cuban Adjustment Act.
    Recent statements by Cuban leaders and Cuban state media 
regarding the facilitating of Cuban Americans traveling to Cuba 
make it abundantly clear that the regime is looking for this 
travel activity for its own economic benefits.
    But let me be clear, Mr. Chairman, in the final analysis my 
legislation is about protecting the rule of law here in the 
United States. The reason I believe this Committee was 
designated as the Committee of jurisdiction over my legislation 
is precisely because this Committee is charged with oversight 
responsibility to ensure that the spirit and letter of our 
immigration laws are followed.
    There are some that may try to distract attention from this 
issue of rule of law and attempt to divert this legislation 
into a debate about U.S. policy toward Cuba or Cuba travel 
regulations. I would strongly urge the Committee to maintain 
the focus on the purpose of my legislation to ensure that the 
spirit and letter of U.S. immigration law is enforced.
    Besides protecting against fraud and abuse in our 
immigration laws, my legislation will also protect American 
taxpayers from fraud and abuse in our social welfare program 
such as Medicare and Medicaid. These programs have been the 
victim of billions of dollars in stolen funds by individuals 
who come from Cuba under the Cuban Adjustment Act, receive 
refuge in Cuba after they have committed their illegal 
activities against the American taxpayer and live in Cuba 
protected by the Cuban Government as fugitives from U.S. 
justice.
    In sum, Mr. Chairman, it is imperative that Congress do 
everything in its power to enforce U.S. immigration law. I 
believe many Americans will be shocked to learn that we allow 
individuals to come to America from a terrorist nation with a 
special immigration status citing political persecution and 
then after a year and a day allow those same individuals to 
travel back to that terrorist nation.
    This abuse, fraud and manipulation of our immigration laws 
must end. The spirit of and letter of our immigration laws must 
be enforced. My legislation will do exactly that.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Rivera follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. Thank you, Mr. Rivera.
    Our next witness, Juan Carlos Gomez, serves as the Director 
of the Carlos A. Costa Immigration and Human Rights Clinic at 
the Florida International University College of Law, where he 
is an assistant clinical professor. Within the field of 
immigration law, he has helped thousands of individuals in 
situations, including removal and deportation proceedings, 
family immigration, and the transfer of professionals and 
executives to the United States. Mr. Gomez received his BA from 
Florida International University with honors and his JD from 
the University of Pennsylvania Law School.
    Welcome, Mr. Gomez.

   TESTIMONY OF JUAN CARLOS GOMEZ, DIRECTOR, CARLOS A. COSTA 
  IMMIGRATION AND HUMAN RIGHTS CLINIC, FLORIDA INTERNATIONAL 
                   UNIVERSITY COLLEGE OF LAW

    Mr. Gomez. I am honored to appear here before you in the 
hope that I can be of assistance in regard to House Bill 2831. 
I came here as someone who was able to become an American 
because of the Cuban Adjustment Act, as someone who benefited 
from the freedom flights, and ironically I was made to feel a 
bit old because your grandmother and I seem to have been in the 
same boat in a way.
    As someone who has represented Cubans for over 20 years who 
were applying for lawful permanent residence under the Cuban 
Adjustment Act and as someone who has taught the workings of 
the Act in law school, the Cuban Adjustment Act of 1966 is 
meant to be a tool to alleviate the suffering of Cubans who 
made it to the United States after fleeing oppression in Cuba. 
There have been amendments to the Act over the decades. The act 
currently requires only 1 year of physical presence in the 
United States in order to apply for adjustment.
    This act is an embarrassment to the Castro government 
because it serves as a reminder to the world that their failed 
system has for decades forced Cubans to flee Cuba. Some say the 
Cuban Adjustment Act is a magnet that attracts Cubans to the 
United States. They are wrong. It is freedom and opportunities 
that are the magnets that attract Cubans to the United States. 
It is particularly embarrassing to the Castros and their 
henchmen that it was not just persons who fled immediately 
after 1959 change in government but hundreds of thousands over 
the last 2 decades alone. As long as the caudillos, or military 
strongmen essentially, and their thugs are in power in Cuba, 
the Act must continue to exist.
    The main refugee system in the United States has been 
inadequate to address the problem of Cuban refugees seeking 
freedom in the United States. In the Cuban situation, parole 
authority has been used since the 1960's because the global 
refugee quota system would have failed to alleviate the 
suffering of those who sought freedom in the United States. And 
while there have been various ways of migration of Cubans 
seeking freedom, the vast majority of Cubans have been paroled 
into the United States and have benefited from the Cuban 
Adjustment Act. Those of us who work in the field have seen 
thousands of good people become permanent residents, and many 
like myself have become United States citizens.
    The legislation seeks to ensure that we keep the intent of 
the Act in place and protect those legitimately seeking refuge 
in the United States. We must distinguish between the poor 
factory workers who are struggling to support themselves and 
their families here and their relatives in Cuba from the role 
of the wise guy who would take advantage of our laws. We must 
distinguish the victims of the oppressors from the 
opportunists.
    And in addressing that, I would respectfully like to 
address a concern in the bill that I have mentioned in my 
written testimony. In its current form, the bill contains no 
exception for a person who would return to the island to deal 
with illness or death of a parent, spouse or child. I think 
that this is a matter that needs to be considered.
    In the context of this important discussion, we must also 
be aware that we have mechanisms in our immigration laws to 
filter out persons who would not be allowed to be admitted as 
lawful permanent residents. There are still unfortunately big 
weaknesses in our immigration laws as related to the Cuban 
situation.
    Congressman Rivera has mentioned some of them. The best 
example that I can think of is where the children, as we define 
the word ``child'' in the INA, of officers of the Cuban 
military or the elite of the Cuban machinery, including 
ministers, vice ministers, heads of bureaucracies, politburos 
from the local level on up who have immigrated to the United 
States. They benefited from the lifestyles of the elite along 
with the Castros in Cuba, and they did not have to actually be 
members of the Communist Party. So they have actually also 
benefited from the generosity of the Cuban Adjustment Act.
    Another example is that you have persons who are 
voluntarily part of the machine of government in Cuba who still 
can benefit from the Cuban Adjustment Act. It is ironic that 
while a country, and many individuals, have had to wait 50-plus 
years for freedom, former members of the Communist Party need 
only wait 5 years and then apply for benefits under the Cuban 
Adjustment Act.
    If I may be so bold as to suggest that everyone from the 
officer class and management level on up in Cuba should be 
denied access to the Cuban Adjustment Act. For instance, if you 
work for the Ministry of Interior in Cuba, which serves as 
Castros main tool of repression and you are not a member of the 
Communist Party, you can become a lawful permanent resident in 
the United States under the Cuban Adjustment Act. I would also 
suggest that these individuals be denied access to the parole 
status or parolee status which is the mechanism that triggers 
access for most Cubans to the Cuban Adjustment Act.
    It is imperative that we continue to protect those who are 
fleeing Cuba as legitimate refugees. I appreciate the intention 
of House Bill 2831 in an effort to strengthen the Cuban 
Adjustment Act. We need to protect the Cuban Adjustment Act 
from abuse.
    I urge the Committee to be cautious and to protect the law 
from persecutors and others who are part of the machine of 
oppression in Cuba without hurting its victims.
    [The prepared statement of Mr. Gomez follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. Thank you very much, Mr. Gomez.
    Our next witness, Mr. Mauricio Claver-Carone, is the 
Executive Director of Cuba Democracy Advocates in Washington, 
D.C., a nonpartisan organization dedicated to the promotion of 
human rights, democracy, and the rule of law in Cuba. Prior to 
his work in government, he served as a clinical assistant 
professor at the Catholic University of America's School of Law 
and as an adjunct professor at the George Washington 
University's National Law Center.
    Mr. Claver-Carone earned his BA from Rollins College, his 
JD from the Catholic University of America, and a Master of Law 
from Georgetown University Law Center.
    Welcome, Mr. Claver-Carone.

             TESTIMONY OF MAURICIO CLAVER-CARONE, 
          EXECUTIVE DIRECTOR, CUBA DEMOCRACY ADVOCATES

    Mr. Claver-Carone. Thank you very much, Mr. Chairman. It is 
truly a privilege to be here with all of you today to testify 
in support of H.R. 2831.
    The Cuban Refugee Adjustment Act of 1966 gives Cuban 
nationals once they reach the United States and stay for a year 
a right to become legal permanent residents. Cubans are the 
only nationality to which the U.S. Congress has awarded this 
special privilege. The legislative history of the Cuban Refugee 
Adjustment Act holds that immigrants from Cuba are refugees 
under international law, hence the original name of the Act.
    Under the United Nation's convention relating to the status 
of refugees of 1951, a refugee is a person who, owing to a 
well-founded fear of being persecuted for reasons of race, 
religion, nationality, membership of a particular social group 
or political opinion, is outside the country of his nationality 
and is unable to or, owing to such fear, unwilling to avail 
himself of the protection of that country.
    Undoubtedly, Cubans remain persecuted for their political 
opinions by the Castro dictatorship, which remains as brutal as 
ever. So it is not yet time to repeal the Cuban Refugee 
Adjustment Act.
    According to U.S. Department of State's most recent human 
rights report, the Castro's regime violations include 
abridgement of the right of citizens to change their 
government; government threats, intimidation, mobs, harassment, 
detentions to prevent citizens from assembling peacefully; and 
a significant increase in a number of short-term detentions, 
which in December rose to the highest monthly number in 30 
years. Moreover, it recognizes that these abuses were official 
acts committed at the discretion and direction of the 
government, and consequently the perpetrators enjoyed impunity 
for their actions.
    In 2011, Cuban independent journalists documented over 
3,835 political arrests by the Castro regime, more than 150 
percent increase from the previous year. As a result, Cubans 
should undoubtedly continue to be paroled into the United 
States as refugees fleeing persecution from the sole remaining 
dictatorship in the Western Hemisphere.
    However, some things have changed since the Cuban Refugee 
Adjustment Act was originally enacted. In 1994, as rising 
political pressure and economic woes threatened the regime's 
post-Soviet existence, Fidel and Raul Castro resorted to their 
old tactic of creating a migration crisis but with a new twist, 
that they began allowing Cubans to take to the sea in makeshift 
rafts.
    From this crisis, the Castro regime extracted a migration 
accord, the 1994 Accord, from the Clinton administration which 
allocated a minimum of 20,000 yearly visas to residents of 
Cubans regardless of their political status vis--vis the 
dictatorship.
    Since the 20,000 minimum visas per year could not be met 
through the Immigration Nationality Act preference system, the 
Clinton administration decided to use the Cuban Refugee 
Adjustment Act as its legal authority to allow this new 
category of humans to come to the United States and become 
legal permanent residents. Pursuant to the 1994 Accord, nearly 
half a million Cubans have entered the United States and become 
legal permanent residents under the Cuban Refugee Adjustment 
Act.
    Although no longer a prerequisite, most have nonetheless 
had a political rationale for fleeing the island, others have 
not. Yet both are equally afforded the benefits of the Cuban 
Refugee Adjustment Act not only regarding their migratory 
status but also the generous means-tested public assistance 
programs afforded to refugees and to which they qualify thanks 
to the Cuban Refugee Adjustment Act.
    These include supplemental security income and Temporary 
Assistance for Needy Families. Such public assistance is meant 
to help Cuban refugees settle here in the United States.
    The time has come to legally ensure that only Cubans who 
come to the United States as refugees are afforded the special 
privileges provided under the Cuban Refugee Adjustment Act and 
thus restore the law's original intent.
    This does not mean that Cubans who are not refugees should 
be denied entry into the United States. It simply means that 
they should be subject to the same set of immigration rules as 
Mexicans, Canadians, Filipinos, or any other nationalities 
patiently waiting to do so. They should not be allowed to jump 
the line.
    Thus, H.R. 2831 would bring non-refugee parity in this 
regard; otherwise this current back door loophole risks 
altogether ended the needed special protections to Cuban 
Refugee Adjustment Act originally intended for those persecuted 
by the Castro regime.
    The Castro regime has manipulated 1994 Accord to create a 
system of travel back and forth for tens of thousands of 
nonrefugee Cubans who nonetheless adjusted their status under 
the Cuban Refugee Adjustment Act. This travel network carries 
minimum political risk for the regime and for many reasons.
    These incongruences are further exacerbated by the fact 
that the U.S. government outsources first-year screening of 
Cubans chosen to be paroled into the United States under the 
Cuban Refugee Adjustment Act to the Castro regime. That is 
right. The U.S. Interest Section in Havana hires Castro regime 
personnel to interview Cubans seeking visas. Thus, adding 
insult to injury, current U.S. policy allows the persecutors to 
choose who will ultimately be afforded the privilege of the 
Adjustment Act.
    The fairest and easiest way to legally classify Cubans who 
have a legitimate political rationale versus those who don't is 
by identifying those who quickly turn around and travel back to 
the islands. Identifying those who travel back for a political 
rationale is not a new rubric. It is how the law distinguishes 
legitimate versus fraudulent refugee claims for every other 
nationality in the world. Therefore, it would bring parity for 
refugees as well.
    Mr. Chairman, this concludes my testimony, and I truly 
appreciate the invitation and opportunity, and I will be 
pleased to respond to any questions.
    [The prepared statement of Mr. Claver-Carone follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. Thank you very much, Mr. Claver-Carone.
    The next witness is Mr. Thomas Bilbao. Mr. Bilbao is 
Executive Director of the Cuban Study Group. Prior to joining 
the Cuban Study Group, Mr. Bilbao served as Director of 
Transition for Senator-elect Mel Martinez and Director of 
Operations for Mel Martinez for the U.S. Senate.
    In addition, he served in the administration of George W. 
Bush as Deputy Director of Operations for Advance at the U.S. 
Department of Housing and Urban Development.
    Mr. Bilbao holds a Bachelor's Degree from American 
University and an MBA from the Kellogg School of Management at 
Northwestern University.
    Welcome.

        TESTIMONY OF TOMAS BILBAO, EXECUTIVE DIRECTOR, 
                        CUBA STUDY GROUP

    Mr. Bilbao. Thank you very much, Chairman Gallegly and 
Ranking Member Lofgren, and other honorable Members of the 
Committee, for the opportunity to present a point of view which 
all too often goes unrepresented in this body despite the fact 
that it reflects the opinions of the overwhelming majority of 
the Cuban American community. I believe it is important to 
provide this perspective on a bill that amounts to little more 
than yet another travel ban to Cuba, which it does so by 
targeting a longstanding benefit afforded to our community.
    For over a decade, the Cuba Study Group has advocated for 
human rights in Cuba and for policies to help break the 
isolation imposed on the Cuban people mainly by the policies of 
the Cuban regime, but sadly also by the policies of the U.S. 
government.
    Our moral beliefs tell us that dividing Cuban families is 
wrong no matter who is responsible for it and that the best way 
to help Cubans on the island become authors of their own future 
is by empowering them through resources and information.
    Since the reversal of restrictions on family travel and 
enacted in 2004, Cuban Americans have taken over 400,000 trips 
annually, and this number continues to grow. Hundreds of 
thousands of Cubans in our community are voting with their 
feet, and they are telling us that for them family is more 
important than politics.
    A September 2011 poll conducted by Florida International 
University demonstrates that 57 percent of Cuban Americans in 
Miami-Dade County favor unrestricted travel to Cuba by any 
American, not just family travel, and those numbers rise to 75 
percent for more recent arrivals, the target of H.R. 2831.
    In addition, leaders of Cuba's pro-democracy movement have 
called on the U.S. to eliminate all travel restrictions to 
Cuba. Almost exactly 2 years ago today, 74 of Cuba's top 
democracy advocates wrote to Congress and stated that, quote, 
we share the opinion that the isolation of the Cuban people 
benefits the most inflexible interests of its government while 
any opening serves to inform and empower the Cuban people and 
helps to further strengthen our civil society, end quote.
    Now, at a time when the Cuban Government is in the process 
of reforming its own onerous migratory laws, which deny its 
citizens the right to travel and divides Cuban families, this 
bill seeks to impose similar restrictions in the United States. 
Unfortunately, for the Cuban American community this latest 
effort to restrict travel to the island targets a longstanding 
benefit afforded to us which has enabled countless Cuban 
immigrants to adapt to life in the United States and to rise to 
the highest levels of academia, business, the arts, and public 
service.
    Proponents of this bill have suggested the beneficiaries of 
the Cuban Adjustment Act shouldn't travel to the island because 
they benefit from this law by claiming political persecution. 
However, the Cuban Adjustment Act does not make persecution a 
condition for obtaining lawful status.
    U.S. immigration law toward Cuba has a long history of 
providing resettlement assistance to Cuban immigrants 
regardless of whether they claim political persecution. This is 
because as Americans we understand that Cuban immigrants, 
whether they claim political asylum or not, are victims of a 
system that systematically violates individual liberties and 
which stifles private initiative.
    Suggesting that all Cuban immigrants benefiting from the 
Cuban Adjustment Act have claimed political persecution or were 
required to by law is simply incorrect. The bill's proponents 
claim that it is necessary in order to prevent abuse and 
manipulation by Cuban Americans. Not only are these attacks 
unfounded as no evidence of widespread abuse has been 
presented, but they are divisive and they are insulting.
    Moreover, the bill is written so broadly as to penalize 
those Cuban Americans who by virtue of having family on the 
island must travel back to Cuba. The broad scope of the 
language of this bill seeks not just to prevent the abuses 
alleged by proponents of the bill but rather forces all Cuban 
immigrants who want to maintain stable legal status in the 
United States to give up visiting their family in Cuba.
    Mr. Chairman, Ranking Member Lofgren, and other Members of 
this Committee, this bill as currently drafted amounts to 
little more than another concerted effort by some to restrict 
travel to Cuba regardless of the human costs and to criminalize 
those who do so by targeting longstanding benefits enjoyed by 
our community.
    The overwhelming majority of Cuban Americans reject efforts 
to restrict our rights to visit family on the island. We reject 
suggestions of abuse and manipulation waged against us in an 
effort to pass legislation that would force us to choose 
between not seeing a family member before they die and falling 
into undocumented status or even deportation proceedings.
    Thank you for this opportunity. I am happy to answer any 
questions that you may have.
    [The prepared statement of Mr. Bilbao follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                               __________
    Mr. Gallegly. Thank you all for your testimony.
    Mr. Claver-Carone, do you believe and can you give us your 
assessment of what kind of persecution, if any, remains in Cuba 
today?
    Mr. Claver-Carone. As I mentioned in my testimony, Mr. 
Chairman, there actually--we are currently seeing a spike in 
repression in Cuba. Just in the month of December there was the 
highest number of political arrests per month in 30 years. So 
we are seeing despite all of the media reports about Raul 
Castro and whether he is a reformist or not, what we are seeing 
is that one thing has changed in Cuba since Raul Castro is in 
power, that repression has increased and is continuing to 
increase dramatically. We saw that just, as I mentioned before, 
in the month of--there was a 150 percent increase year over 
year in political arrests on the island.
    So we are seeing, you know, a huge spike and therefore 
those Cubans that are out there heroically fighting for freedom 
need to have the protections, and they need to know that the 
United States is out there in the moral and historic 
responsibility that they have had.
    However, our concern though is how do those people, how do 
those courageous freedom fighters in Cuba feel when they see 
people, people that even persecuted them coming to the United 
States, receiving the benefits under the Cuban Refugee 
Adjustment Act, and then going back to the Cuba as if nothing 
happened. These are sometimes people that persecuted them, 
people that were parts of the Committees for the Defense of the 
Revolution and other things. It is very demoralizing for them, 
and that is our big concern in making sure that we have a 
bright line.
    Mr. Gallegly. Mr. Bilbao, under the CRAA, Cubans are 
provided with benefits that no other Nations' citizens enjoy. 
Don't you believe these benefits should be preserved?
    Mr. Bilbao. Mr. Chairman, of course I believe that these 
benefits should be preserved. It is something that our 
community appreciates. It is a gesture by the American people, 
and the suggestion, however, that this bill is--that this 
benefit is under attack I think is baseless in the sense that 
we have not seen any evidence of widespread abuse.
    The only evidence I can see of this benefit being 
threatened is H.R. 2831, which seeks to repeal these benefits 
especially during a time when, as Mr. Claver-Carone suggests, 
repression is increasing on the island.
    Mr. Gallegly. In your testimony you state the intent of the 
CRAA was to regularize the immigration status of Cubans in the 
U.S. Wasn't the intent to provide Cubans with refuge from an 
oppressive regime?
    Mr. Bilbao. Mr. Chairman, the intent of the Act was to 
regularize the status of thousands of Cubans who were already 
in the United States at the time and who did not have--and were 
basically in legal limbo and the fact that that act in no place 
mentions the fact that they have to be politically persecuted 
would suggest to me that the practice that has been common for 
the last 10 years of overwhelming majority of people who have 
benefited from this being actually folks on track for family 
reunification as opposed to political persecution, that this 
act is intended to help Cubans adjust their status and is not 
limited solely to those who claim political persecution.
    Mr. Gallegly. Mr. Claver-Carone, if I ask you the same 
question would you give me the same answer?
    Mr. Claver-Carone. No. Actually, if you read the 
legislative history of the Cuban Refugee Adjustment Act, thus 
the name, the Cuban Refugee Adjustment Act, it was meant to 
protect people that were persecuted in Cuba and to provide them 
a way to adjust their status here in the United States.
    We are not saying that people should not travel back to 
Cuba. We want to have the foreign policy debate. We can have 
that in the Committee down the hall. However, if people are 
coming to the United States and adjusting under the Cuban 
Refugee Adjustment Act, they should apply and they should be 
based on those rules and they should be subject to those rules.
    If people want to come here under non-refugee status, then 
they should get in line with a lot of people throughout the 
world that are patiently waiting to come to the United States 
and enjoy those privileges. So it is how you use the Cuban 
Refugee Adjustment Act.
    Mr. Gallegly. Congressman Rivera, would you like to comment 
on that?
    Mr. Rivera. Sure. I will just conjure up the words of our 
former colleagues from the United States Congress in 1966. 
Congressman Michael Feighan of Ohio stated the granting of 
permanent resident status would further American policy 
objectives by further demonstrating the desire of the United 
States to play a full and sympathetic role as a country of 
asylum to refugees from communism.
    Former Congressman Claude Pepper: I want to commend the 
Committee to provide humanitarian aid for these people fleeing 
from Communist persecution and tyranny under Castro toward 
establishing permanent residence in our country.
    Obviously, the pretext of the Cuban Adjustment Act is 
political persecution. The only reason it was ever enacted in 
1966 was because of the political situation in Cuba, the 
existence of a Communist, totalitarian dictatorship that denied 
basic human rights and civil liberties, the exact same 
conditions that exist today.
    Mr. Gallegly. My time has expired.
    I yield to the gentlelady from California, the Ranking 
Member, Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman.
    I would just like to make a quick statement for the record. 
I notice in Congressman Rivera's written remarks that he 
describes U.S. taxpayer funded welfare programs and includes 
Social Security and Medicare as those welfare programs. And I 
would just like to note for the record I think that would come 
as quite a surprise to the Social Security recipients who have 
paid into that program their entire lives in order to be 
eligible along with Medicare recipients who have paid in their 
entire lives in order to be eligible for Medicare. I personally 
do not consider Medicare and Social Security to be welfare.
    Now, as to this Act, as you look at immigration law, it 
seems to me that the bill doesn't actually affect Cuban 
refugees. There were 3,000 Cubans who came as refugees last 
year, and 18,000 who came from Cuba who were not refugees, and 
I would ask unanimous consent to put in the record a report 
from the Congressional Research Service titled ``Cuban 
Adjustment Act of 1966,'' pointing out that the Cuban 
Adjustment Act does not require any claim of persecution or a 
showing that you must be a refugee or asylee or any 
individualized hardship under the Act.
    Mr. Gallegly. Without objection.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Ms. Lofgren. So the refugees could actually, under the law, 
under section 209 of the Immigration Act, they can become a 
permanent resident anyhow. This bill really directs the 
attention to people who are coming, the 18,000 who came last 
year who adjusted under the Cuban Adjustment Act. Now, I 
understand from Mr. Claver-Carone's comment that he may feel 
that the Cuban Adjustment Act as to family and non-refugees 
doesn't have a purpose. I would actually like to see something 
like the Cuban Adjustment Act extended to other victims of 
communism.
    For example, I think about the people in Venezuela who are 
suffering from a Communist dictator. Maybe we should see 
whether they should also receive a benefit such as the Cuban 
Adjustment Act, or the people in Vietnam who are suffering from 
the vicious Communist dictatorship. Maybe they should also 
receive a benefit such as this.
    But that is for another day.
    I just think that to target the family members for 
deportation if you go for any purpose is an extraordinary 
measure.
    Now, listening to Mr. Claver-Carone's comment that there 
might be people who had oppressed people--I mean, really there 
is a provision that makes people excludable from the United 
States if they have given material support to terrorist groups 
and other things. And maybe, the bill doesn't do this, but I 
would be certainly happy to work with you, sir, to tighten up 
the language to make sure that people who are engaged in 
oppressing the Cuban people are not able to utilize the Cuban 
Adjustment Act. I think that would be a worthy goal. This bill 
does not do that.
    I would just like to talk a little bit as well about the 
whole issue of public benefits. We asked, I asked my staff to 
research the eligibility for Temporary Assistance to Needy 
Families in the State of Florida. Now, it is hard to get. You 
have to have minor children. You have to be very poor, and if 
you are not disabled, you have to participate in a work 
program. It is revoked if you don't maintain your residency. So 
if you leave Florida for 60 days, you lose the benefit, but 
further, you have to come in every week to work. So obviously 
if you are in Cuba, you are not going to be able to meet the 
work requirement, you are not going to get this benefit.
    The food stamp program also has the 60-day, if you are gone 
for 60 days the benefit is revoked, and also SSI, if you are 
out of the United States for more than 30 days it is revoked, 
and it is worth noting that the Department of Homeland Security 
and Social Security Administration have executed an information 
sharing agreement to really make sure that nobody has the 
capacity to evade this law where you can't get SSI if you are 
disabled and go some place else for more than 30 days.
    Just speaking for myself, if you are a disabled person, and 
your father dies, I think you should be able to go to the 
funeral even if you are on SSI, but this bill would say no, if 
you are a permanent resident under the Cuban Adjustment Act and 
you go to your dad's funeral, don't bother to come back to 
Miami. I just don't agree with this.
    I would look for--I know my time has expired, Mr. Chairman, 
but I would look forward to working with those who want to 
tighten the Act to make sure the communists don't benefit from 
it. A noble goal. Let us work on that. But let's not deport 
David's grandma.
    I yield back.
    Mr. Gallegly. I thank the gentlelady.
    The gentleman from Florida, Mr. Ross.
    Mr. Ross. Thank you, Mr. Chairman. Representative Rivera, I 
understand the reunification of a family and how important that 
is. But it seems to me that there is another gain here, and I 
guess my question to you is this. What does the Castro regime 
stand to gain from the CRA that we have?
    Mr. Rivera. Well, I can tell you that precisely in 2004 the 
Bush administration changed the travel regulations to Cuba to 
making it instead of--I believe at that time it was twice a 
year to once every 3 years, and the reason that occurred was 
because of the fraud and abuse and manipulation of those 
regulations that occurred where people were making claims of 
family reunification, which cannot be verified because as you 
know when you are dealing with a Communist, totalitarian 
dictatorship like the Castro regime, no documentation or 
reliable information can be counted upon from the Cuban 
Government, which is exactly why we need these types of 
regulations.
    So to say that there should be some sort of a humanitarian 
cause of the Castro regime will somehow play a part in and help 
facilitate documentation of these humanitarian cases is absurd.
    Mr. Ross. There is no evidence of that, is there? In fact, 
there is evidence just to the contrary.
    Mr. Rivera. You absolutely cannot rely on them for any type 
of information whatsoever. That is their modus operandi is to 
provide propaganda, false information, false documentation. But 
those cases of abuse represented not millions but hundreds of 
millions of dollars in benefits to the Castro regime. Just as 
now when we have unlimited travel from people that are under 
the new Obama regulations for Cuba travel, again, it has 
increased in hundreds of millions of dollars to the regime. 
This represents a permanent travel market for the Castro regime 
where people come to the United States again under the pretext 
of political asylum, under fleeing political persecution. That 
is the only pretext.
    Mr. Ross. Stay here a year and a day.
    Mr. Rivera. And then they return and do so repeatedly.
    Mr. Ross. Mr. Claver-Carone, let me ask you that because it 
seems to me that there is a list of people who want to go back 
to Cuba but the Cuban Government won't let a certain number of 
people but do selectively allow others to come back. Why is 
that?
    Mr. Claver-Carone. It is actually and particularly since 
the 1994 interpretation, the Castro regime has gamed the system 
in the sense of which is appalling to us and mindboggling to 
us, but the first tier of interviews in the U.S. Interest 
Section in Havana of people who gave these reviews are done by 
the Castro regime. So the persecutor interviews the people that 
are coming and basically knowing that they are going to be 
coming back because----
    Mr. Ross. It is a setup.
    Mr. Claver-Carone. Exactly. Meanwhile, there is a blacklist 
of hundreds of thousands of Cubans that they consider 
politically threatening that they will not give a visa to go 
back to Cuba. So it is a game, essentially for them. They have 
legitimately gamed the system and the travelers have gamed the 
system.
    Mr. Ross. What would be the motivation for that? Is it not 
that we as a country are somewhat funding their welfare state 
through this program?
    Mr. Claver-Carone. What is created is a system of travel 
back and forth and it is indirectly a--I mean it is a relief 
mechanism for the regime, a main relief mechanism for the 
regime, and what we see with the rules that now the Obama 
administration has interpreted them and allowed them to be 
unlimited, it is not a coincidence that we are seeing such a 
dramatic rise in the visits to Cuba. It doesn't mean that there 
are more travelers to Cuba amongst Cuban Americans. It is the 
visits. Why? Because a lot of the travelers are aware of the 
limitations in the assistance. They are aware of the 30-day and 
the 60-day limitations for SSI and TANF and all these things, 
and in that sense they are traveling more often. So they go, 
they stay for a month, they come back, then they go back for 
the next month, and they have essentially gamed the system as 
well. It is a game from beginning now to end.
    And meanwhile, those that are legitimately and truly 
politically threatening to the regime are on this blacklist. 
They are not even allowed to go back. So it is perfect for 
them. It is a perfect situation.
    Mr. Ross. Now, the State Department has considered them, 
has considered Cuba to be a state sponsor of terrorism along 
with Iran and Syria and the Sudan, and yet if an Iranian over 
here under asylum were to go back they could not come back to 
the U.S., but Cubans under the CRA can come back and come back 
and come back. Why should we treat the Cuban refugee any 
differently than we are treating the Iranian refugee as well?
    Mr. Claver-Carone. I think, Congressman, I mean you hit 
this nail on the head, and what this bill seeks to do is to 
bring parity for non-refugees and for refugees. It makes no 
sense that someone that flees from Iran, Sudan, Syria, or other 
source countries of refugees has to--until 2004 sometimes they 
have to wait 14 years to become permanent residents. Now they 
just have to go through the processing times which might be 
even 5 years to become a permanent resident, not to mention to 
become a citizen. So it is nonsensical, frankly. Cubans still 
have a----
    Mr. Ross. And doesn't the current state of affairs pose a 
security threat to the United States with Cuba?
    Mr. Claver-Carone. Absolutely, because the system is gamed 
from beginning to end. So in addition to you not only have that 
these are refugees and people that are fleeing, but they are 
also from a state sponsor of terrorism country and they have 
the most lax rules of any country in the world.
    Mr. Ross. Thank you. I see my time has expired. I yield 
back.
    Mr. Gallegly. I thank the gentleman. The gentlelady from 
Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you. I am in between two hearings, 
and I thank the witnesses for their kindness. And with having 
astute staff, Ranking Member Lofgren and I was able to get an 
assessment, a very moving story, of David's grandmother. And I 
think I have lived on the Immigration Subcommittee now for a 
decade plus and have been filled with such stories and such 
stories of humanity.
    The mover of this legislation is a good friend, and I thank 
him for the sincerity in which he offers this legislation, but 
I am baffled and I think I have difficulty in comprehending 
that when you write legislation of this type, with all good 
intentions, Mr. Bilbao, you wind up passing a large fishnet and 
before you know it you have gotten people who simply want to be 
reunited with family members, people who are going to see sick 
loved ones, dying loved ones.
    So as I understand the legislation coming on the Cuban 
Adjustment Act, it is to prevent individuals who return to Cuba 
from becoming a legal permanent resident. I want you to give me 
a global perspective about--I want you to take your imagination 
because imagination turns out to be truth, of how far reaching 
could this be. What innocent person could be caught up in this 
fishnet, this web, and be prohibited from doing an honest, 
sincere, needed visit, and then why are we preempting with 
punishment for someone who is going that simply wants to visit 
and they have--and you might clarify for me, is this someone 
that has a political agenda as a former elected official or 
terrorist that we are talking about? My understanding is it is 
the average person that comes, is under the, potentially could 
be under the Cuban Adjustment Act that has to return to Cuba.
    Mr. Bilbao, would you answer those questions for me, 
please?
    Mr. Bilbao. Thank you, Congresswoman Lee. I can do better 
than use my imagination. I can give you a concrete example. In 
2004, after the Bush administration imposed the new family 
restrictions on travel, a gentleman by the name of Sergeant 
Carlos Lazo, who is an army medic serving in Iraq, wanted to go 
visit his son who was in Cuba and who is ill during his 2-week 
R&R from the battle in Iraq, but because of the changes in the 
regulations he was unable to do so. Today Cuban Americans serve 
in the armed forces as residents before becoming naturalized 
citizens, and in this case if this legislation were passed we 
could have a situation as someone like a Sergeant Carlos Lazo, 
who is a bronze star recipient and whose commitment to freedom 
is unquestionable, be deported or become an illegal immigrant 
in this country just because of the fact that during his 2-week 
R&R from the war in Iraq from saving American soldiers as a 
medic he wanted to go visit his ill son in Cuba. And that along 
with a number of other potential unforeseen circumstances are 
the result of the type of legislation that casts such a wide 
net in an effort to basically just restrict the rights of 
Cubans to be able to visit their family in the island.
    Ms. Jackson Lee. What do you say, I know that we have had 
long testimony of other witnesses and I am going to pursue the 
line of questioning with you because I want you to be balanced, 
what do you say to the advocates of this that we are stemming 
the tide of fraudulent persons, persons who would wreak havoc 
on the Adjustment Act and may be affiliating and fraternizing 
with the government?
    Mr. Bilbao. Well, the best that I can do and the best 
effort to be unbiased I will just read directly from a letter 
submitted to Congress by 74 of Cuba's leading democracy 
advocates almost 2 years ago exactly today. And in that letter 
they say, quote, the support or presence of American citizens, 
their direct help and the many opportunities for exchange used 
effectively in the desired direction would not be an 
abandonment of Cuban civil society but rather a force to 
strengthen it. They go on to say, we believe that defending 
each and every human right for people must be an absolute 
priority ahead of any political or economic consideration and 
that no restriction of these rights can be justified on 
economic, political or social grounds. We believe that rights 
are protected with rights.
    And this hearing, Congresswoman, is about a bill that would 
restrict the rights of Cuban Americans. And the question then 
is why would Cuban Americans advocate for a bill that restricts 
the rights of their constituents or their fellow Cuban 
Americans. And I believe that it is quite clear that what H.R. 
2031 seeks to do is to punish Cuban Americans who disagree with 
the policy of isolating the Cuban Government at all costs.
    Ms. Lofgren. Would the gentlelady yield?
    Ms. Jackson Lee. I would be happy to yield.
    Ms. Lofgren. For just 15 seconds. Our colleague Congressman 
Rivera indicated that in his view we need to adjust the Cuban 
Adjustment Act in order to save the Cuban Adjustment Act. And I 
just want to state because several reporters came up to me that 
I am totally opposed to repealing the Cuban Adjustment Act. And 
I think I speak for the Democrats in this House that we will 
fight repeal of the Cuban Adjustment Act.
    And with that I would yield back.
    Mr. Gallegly. I thank the gentlelady.
    Ms. Jackson Lee. I want to thank the Chairman if I could 
and just thank Mr. Bilbao for giving us the real story on why 
we should balance our response to this issue. Thank you. I 
yield back.
    Mr. Gallegly. Before I conclude I do have one unanimous 
consent request that we enter into the record a background 
document provided by Rep. Rivera which includes quotes by 
Democrat members of the House during the debate in the original 
Cuban Adjustment Act. The quotes note that the justification 
for the CAA is that Cubans already in the U.S. could not go 
back to Cuba as would have been required under the immigration 
law in order to gain lawful permanent residence.
    And without objection, that will be entered into the 
record.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
    Mr. Gallegly. With that, I want to thank each and every one 
of you for your testimony today. And all Members will have----
    Mr. Claver-Carone. Mr. Chairman, is it possible to also 
submit a letter from 500 Cuban pro democracy leaders that 
actually contradicted the letter of the 74, that disagreed with 
the letter of the 74, so 500 pro democracy leaders.
    Mr. Gallegly. Is that a request to have those letters----
    Mr. Claver-Carone. Yes. I ask it be submitted also for the 
record.
    Mr. Gallegly. Without objection, that will be made a part 
of the record of the hearing.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Rivera. Also, Mr. Chairman, our colleague Albio Sires 
wanted to ask that his testimony be also submitted for the 
record.
    Mr. Gallegly. Without objection.
    [The information referred to follows:]
 Prepared Statement of the Honorable Albio Sires, a Representative in 
                 Congress from the State of New Jersey
    Mr. Chairman, Thank you for holding today's hearing on H.R. 2831, 
legislation aimed at reducing the abuse of the privileges given to 
Cuban immigrants in this country. As a Cuban immigrant, a 
representative of a large Cuban-American population, and a strong 
advocate for immigrant rights, I am pleased to have the opportunity to 
submit a statement on this topic. H.R. 2831 highlights the need to 
reform the current system to ensure that all help offered under the 
Cuban Adjustment Act (CAA) continues to be available for those who 
desperately need it.
    I want to be clear; it is not my intention to attack immigrants. I 
support reforming the broken immigration system in the United States to 
benefit our economy, encourage family unity, and provide refuge to 
persecuted peoples. I also support providing federal assistance to 
immigrants in need. Because of these priorities, I believe we must 
uphold the CAA to protect Cubans seeking refuge while bringing parity 
to a system that has gotten out of control.
    No other immigrants receive the advantages that Cuban immigrants 
receive under the CAA. Under current law, all Cuban immigrants have 
ability to adjust to permanent legal resident status after one year in 
the United States and obtain financial assistance from the United 
States under such programs as the Temporary Assistance for Needy 
Families program and the Supplemental Security Income program. The CAA 
was specifically designed to help Cuban refugees unable to return to 
Cuba, and those who need help should get it. However, presently all 
Cuban immigrants, refugees or not, fall under the CAA.
    This law was not designed for those Cubans who wish to live in the 
United States and vacation in Cuba. Non-refugees are abusing the 
benefits offered under the CAA. This is the only case when refugee 
benefits are given to non-refugees. Under the CAA system and newly 
relaxed travel regulations, non-refugees can receive expedited 
permanent status and then simply return to Cuba whenever they like. If 
they qualify, these immigrants can even receive U.S. benefits that they 
may spend in Cuba. The Cuban Adjustment Act was designed to help Cubans 
safely and efficiently escape the Cuban regime. The law was not 
designed to aid U.S. dollars flowing to the Cuban Communist Party.
    These abuses need to be addressed. Congress should consider 
legislation that differentiates between asylum seekers from Cuba and 
other types of Cuban immigrants. The United States should maintain its 
commitment to Cubans who rely on the protection of the United States by 
allowing threatened Cubans to receive the benefits under the CAA. All 
other Cuban immigrants should be treated the same as immigrants from 
other countries.
                               __________

    Ms. Lofgren. Mr. Chairman, I wonder if Mr. Bilbao's letter 
that he referenced might also be included in the record.
    Mr. Gallegly. If Mr. Bilbao would like to add that, without 
objection, that will be made a part of the record of the 
hearing.
    Mr. Bilbao. Thank you, Mr. Chairman.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
    Mr. Gallegly. With that, that concludes the testimony. 
Again, I want to thank all the witnesses today. Without 
objection, all Members will have 5 legislative days to submit 
to the Chair additional written questions for the witnesses 
which will be forwarded and asked of the witnesses to respond 
in as timely a fashion as possible so we can make their 
comments a record of the hearing. Without objection, all 
Members will have 5 legislative days to submit any additional 
materials for inclusion in the record. And with that I again 
want to thank the witnesses. The Subcommittee stands adjourned.
    [Whereupon, at 3:07 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
